TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                   Review of the Internal Revenue Service
                  Criminal Investigation Division’s Non-Profit
                            Fraud Referral Process


                                          July 2, 2010

                         Reference Number: 2010-IE-R006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1=Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.treas.gov/tigta/
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     July 2, 2010


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


 FROM:                           R. David Holmgren
                                 Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                        Final Evaluation Report – Review of the Internal Revenue Service
                                 Criminal Investigation Division’s Nonprofit Fraud Referral Process
                                 (IE-09-013)

 This report presents the results of our review to document the Criminal Investigation Division’s
 (CI) efforts to investigate criminal fraud related to the tax-exempt organizations and assess the
 procedures used to conduct and manage such investigations.
 The review was conducted after Senator Susan Collins and Representative Darrell Issa requested
 the Treasury Inspector General for Tax Administration (TIGTA) review CI’s enforcement efforts
 with respect to taxable nonprofit corporations engaging in political activities.1 In response to that
 request, TIGTA initiated a review of the Internal Revenue Service’s (IRS’s) oversight of tax-
 exempt Section 501(c)(3) organizations and agreed to review internal IRS referral processes with
 regard to nonprofit fraud investigations.2
 All the data that we reviewed to complete this evaluation was provided to us by CI and as such
 we were not able to independently confirm the information. Since CI categorized the
 investigations as grand jury cases, CI did not provide any information contained in the criminal
 investigation case files pursuant to Rule 6(e) of the Federal Rules of Criminal Procedure, which
 limits the disclosure of grand jury information. Throughout the review, CI and TIGTA staff
 cooperated to the fullest extent possible.




 1
     Cosigned letter from Senator Susan Collins and Representative Darrell Issa dated September 18, 2009.
 2
     TIGTA individual letters to Senator Collins and Representative Issa dated September 23, 2009.
                    Review of the Internal Revenue Service Criminal Investigation
                             Division’s Nonprofit Fraud Referral Process




Synopsis
During the period Fiscal Years 2007 through 2009, CI had an inventory of 168 tax-exempt
investigations. Twenty-seven percent of the referrals received by CI came from other IRS
functions while about 20 percent came from the United States Attorney’s Office. The third
largest number came from other Federal agencies including the Federal Bureau of Investigation.
In general, the percentage of investigations related to tax-exempt entities seems reasonable
compared to the number of tax-exempt returns filed.
Approximately 72 percent of tax-exempt investigations (121 of 168) are subject criminal
investigations, which are investigations related to a specific individual or entity alleged to be in
violation of laws enforced by the IRS and having criminal prosecution potential. About
one-third of the subject criminal investigations completed by CI resulted in a conviction.
We were unable to fully determine if fraud referrals were accepted or declined within
30 calendar days as stipulated in CI procedures. The TIGTA Office of Audit reported in
March 20053 at that time CI took an average of 93 calendar days to decide to accept or decline
fraud referrals during Fiscal Year 2003. In response to that report, Chief, CI, replied that several
actions to address that finding were to be implemented by September 2004. The actions included
implementing a fraud referral tracking system and re-emphasizing established operating
procedures. Included was a requirement to better track referrals and to evaluate referrals within
30 workdays of receipt.
We attempted to determine if CI timely evaluated the referrals included in our review. CI staff
was able to provide information on only 14 cases, and only six of the 14 were evaluated timely.

Recommendation
We recommend the Chief, CI should modify the Criminal Investigation Management
Information System (CIMIS)4 to capture data required to readily assess the timeliness of fraud
referral evaluations.

Response
The Chief, CI, did not agree with our recommendation to modify the CIMIS to capture data
required to readily assess the timeliness of fraud referral evaluations. CI management believes


3
  The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
4
  CIMIS is a management and information system for tracking the status and progress of CI investigations, time
expended by CI employees, employee information, and IRS CI investigative equipment.
                                                                                                                 2
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




the CIMIS currently has the ability to capture data required to assess the timeliness of fraud
referral evaluations. However, CI plans to issue additional guidance to ensure special agents
timely record specific information related to fraud referral evaluations, which should enhance
CI’s ability to monitor the timeliness of fraud referral evaluations. Additionally, the Chief, CI
also highlighted significant difference between the conviction rate for subject criminal
investigations computed by TIGTA and that computed by CI. Management’s complete response
to the draft report is included in Appendix V.

Office of Inspections and Evaluations Comment
We agree that CI might use existing CIMIS data to measure the timeliness of fraud referral
evaluations, and issuing additional guidance to ensure special agents timely record specific
information related to fraud referral evaluations should improve this process. However, these
measures will only provide a general indication of whether evaluations are being processed
timely. In cases where the evaluation period exceeds established guidelines, additional research
will be required to determine whether there were delays in posting information to CIMIS or
actual delays in the evaluation process.
We added additional information to this report to explain the differences in the methods TIGTA
and CI use to compute conviction rates cited in this report.
Copies of this report are also being sent to IRS managers affected by the report recommendation.
Please contact me at (202) 927-7048 if you have questions about the material in the report or
Kevin Riley, Director, Inspections and Evaluations at (972) 249-8355.




                                                                                                   3
                       Review of the Internal Revenue Service Criminal Investigation
                                Division’s Nonprofit Fraud Referral Process




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Investigations Related to Tax-Exempt Organizations are
          Relatively Few But Are Successfully Prosecuted.........................................Page 3
                    Recommendation 1:..........................................................Page 5

          Conclusion ....................................................................................................Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to this Report .........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Prison Sentences and Ordered Payments for
                        Completed Tax-Exempt Investigations ...............................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 18
        Review of the Internal Revenue Service Criminal Investigation
                 Division’s Nonprofit Fraud Referral Process




                       Abbreviations

CI               Criminal Investigation Division
CIMIS            Criminal Investigation Management Information System
IRS              Internal Revenue Service
SB/SE            Small Business/Self-Employed Division
TE/GE            Tax Exempt and Government Entities Division
TIGTA            Treasury Inspector General for Tax Administration
                    Review of the Internal Revenue Service Criminal Investigation
                             Division’s Nonprofit Fraud Referral Process




                                            Background

The Internal Revenue Service (IRS) estimates there are approximately 1.8 million tax-exempt
organizations in the United States that control more than $3.4 trillion in assets. Tax-exempt
organizations include religious, charitable and social welfare organizations; labor and agriculture
organizations; business leagues; and social and recreational clubs. IRS management has been
aware of potential fraud1 in the tax-exempt sector for several years and has increased their
enforcement efforts. Primarily three IRS divisions, Tax Exempt and Government Entities
(TE/GE), Small Business/Self-Employed (SB/SE), and Criminal Investigation (CI), work
together to detect and deter fraudulent activities in the tax-exempt sector.
TE/GE is responsible for ensuring organizations exempt from Federal income tax comply with
the Internal Revenue Code and related regulations. SB/SE has overall responsibility for the IRS
National Fraud Program and coordinating the IRS-wide fraud strategies, policies, and procedures
to enhance enforcement of the tax law. CI investigates potential criminal violations related to tax
administration and related financial crimes, including violations of the Bank Secrecy Act,2 and
the Money Laundering Control Act.3
TE/GE and SB/SE are the primary source of tax-exempt investigations. Approximately
36 percent of tax-exempt investigations conducted during Fiscal Years 2007 through 2009
resulted from criminal fraud referrals from TE/GE and SB/SE. CI initiated the remaining
tax-exempt investigations based on information received from external sources, such as the
Federal Bureau of Investigation, the United States Attorney’s Office, State and local agencies,
the media, and informants.
The TIGTA Office of Audit recently completed reviews4 designed to assess the effectiveness of
TE/GE and SB/SE fraud programs. Our review was performed to document CI’s efforts to
investigate criminal fraud related to the tax-exempt organizations and assess the procedures used
by CI to conduct and manage such investigations. CI is comprised of approximately
4,100 employees, of whom about 2,600 are special agents trained and authorized to conduct
investigations of potential criminal violations.

1
  Tax fraud is a deliberate, willful violation of Internal Revenue laws and involves obtaining something of value
through deceit.
2
  Pub. L. No. 91-508, 84 Stat. 1114 (1970) (codified as amended in scattered sections of 12 U.S.C., 18 U.S.C., and
31 U.S.C.) Regulations for the Bank Secrecy Act, and other related statutes, are 31 C.F.R. §§ 103.11-103.77 (2009).
3
  Pub. L. No. 99-570, 100 Stat. 3207 (codified as amended in scatted sections of 12 U.S.C., 18 U.S.C., and
31 U.S.C.)
4
  A Corporate Approach Is Needed to Provide for a More Effective Tax-Exempt Fraud Program (Reference
Number 2009-10-096, dated July 2009), and Management Has Emphasized the Fraud Program, but Opportunities
Exist to Further Improve It (Reference Number 2007-30-179, dated September 2007).
                                                                                                           Page 1
                   Review of the Internal Revenue Service Criminal Investigation
                            Division’s Nonprofit Fraud Referral Process




The results of our review are primarily based on analyses of data obtained from the Criminal
Investigation Management Information System5 (CIMIS) and interviews with CI management
and special agents. We did not review documentation contained in criminal investigation case
files. Since CI categorized the investigations as grand jury cases, CI did not provide any
information contained in the criminal investigation case files pursuant to Rule 6(e) of the Federal
Rules of Criminal Procedure, which limits the disclosure of grand jury information. As a result,
all the data that we reviewed was provided to us by CI and as such we were not able to
independently confirm the information. Throughout the review, CI and TIGTA staff cooperated
to the fullest extent possible.
This review was performed at CI National Headquarters in Washington, D.C., and the
Atlanta, Georgia field office during the period October 2009 through March 2010. With the
exception of the scope limitations described in the prior paragraph, we conducted this review in
accordance with the Council of the Inspectors General for Integrity and Efficiency Quality
Standards for Inspections. Detailed information on our evaluation objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 CIMIS is a management and information system for tracking the status and progress of CI investigations, time
expended by CI employees, employee information, and IRS CI investigative equipment.
                                                                                                          Page 2
                    Review of the Internal Revenue Service Criminal Investigation
                             Division’s Nonprofit Fraud Referral Process




                                      Results of Review

Investigations Related to Tax-Exempt Organizations are Relatively
Few But Are Successfully Prosecuted
Overall, CI conducts a relatively small number of investigations related to tax-exempt
organizations. However, investigations of these cases have resulted in a conviction rate of about
35 percent and several of those convicted have received prison sentences and been ordered to
pay additional tax assessments, fines and restitution or some combination thereof.
The referral process
Each office within TE/GE conducts enforcement efforts designed to identify potential fraud. If
an examiner identifies a specific case with indications of fraud and the potential tax loss equals
or exceeds the threshold to warrant prosecution and incarceration, the examiner should document
the results in a Referral Report of Potential Fraud Case and refer the case to his or her manager.
If the manager agrees with the examiner’s conclusions and approves the case, the case should be
referred to a Fraud Technical Advisor in the IRS National Fraud Program.
The Fraud Technical Advisor should work with the examiner from TE/GE to determine whether
additional documentation should be gathered to support the case or whether the case is ready to
be referred to CI for investigation. Upon receipt of the criminal fraud referral from the National
Fraud Program Office, the Special Agent in Charge receiving the referral should review the case
and assign it to a special agent.
CI considers all investigations related to tax-exempt organizations sensitive; therefore, such
investigations should receive a higher level of scrutiny and management oversight. Specifically,
Directors of Field Operations6 must approve certain processes that are normally approved by the
Special Agent in Charge of the field office. For example, the Directors of Field Operations
should approve the decision to accept a fraud referral, which converts the related primary
investigation to a subject criminal investigation. Additionally, the Directors of Field Operations
should approve the decision to initiate a grand jury investigation.
The evaluation period for criminal fraud referrals related to tax-exempt
organizations exceeded established goals
Generally, the special agent assigned to a fraud referral should determine whether the fraud
referral should be accepted or declined within 30 business days of receiving the referral in the CI

6
 A Director of Field Operations is assigned to each of CI’s four geographic locations. Each Director is responsible
for functional coordination and oversight of the assigned area.
                                                                                                            Page 3
                   Review of the Internal Revenue Service Criminal Investigation
                            Division’s Nonprofit Fraud Referral Process




field office. If additional time is required to evaluate the referral, the special agent can request
an extension to the evaluation time period. In a prior report,7 TIGTA, Office of Audit reported
CI took an average of 93 calendar days to accept or decline 521 referrals during Fiscal
Year 2003. In response to recommendations made by TIGTA, the Chief, CI advised that a
detailed policy memorandum had been issued that reemphasized established operating
procedures, and implemented a fraud referral tracking system. The fraud referral tracking
system included assigning a fraud referral coordinator to each CI field office. The duties of the
fraud referral coordinator include:
    •   Maintaining a record of fraud referrals received by the Field Office, including current
        status; and,
    •   Assisting the Special Agent in Charge in tracking due dates and extensions.
Based on information provided by CI, 45 tax-exempt investigations conducted during Fiscal
Years 2007 through 2009 resulted from criminal fraud referrals from TE/GE and SB/SE. We
attempted to determine whether CI timely accepted or declined these fraud referrals; however,
the information required for our analysis (the date CI received the referral and the date a decision
was made to accept or decline) was not recorded in the CIMIS. Therefore, officials from CI
National Headquarters had to gather the information from each field office that evaluated the
fraud referrals, which was time consuming and labor intensive.
Because of miscommunications between officials in CI National Headquarters and the field
offices, the information submitted for our analysis was incomplete and contained several errors.
Specifically, officials in the field offices only provided the data required for 14 of 45 fraud
referrals. Officials in CI National Headquarters office later corrected the errors, explained the
reasons that incomplete information was provided, and volunteered to submit another request for
the information. Because of time constraints, we could not extend our review for another data
request. Therefore, we based our analysis on information provided for 14 of 45 fraud referrals.
We found CI took an average of 40 business days to decide whether to accept or decline the
referrals, which is 25 percent higher than the 30 business day standard. Specifically, CI made a
decision to accept or decline the fraud referral within 30 business days for only six of 14 fraud
referrals. CI requested an extension to the evaluation period for the eight fraud referrals that
took longer than 30 workdays to evaluate.
CI relies on fraud referral coordinators in each field office to monitor the status of fraud referrals.
However, CI does not centrally store the information required to determine whether fraud
referrals are routinely evaluated in a timely manner. Because the information is not stored in a
central location, CI cannot readily assess the timeliness of fraud referral evaluations.


7
 The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
                                                                                                       Page 4
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




Recommendation
Recommendation 1: The Chief, CI, should modify the CIMIS to capture data required to
readily assess the timeliness of fraud referral evaluations.
       Management’s Response: The Chief, CI, did not agree with our recommendation to
       modify the CIMIS to capture data required to readily assess the timeliness of fraud
       referral evaluations. IRS management believes the CIMIS currently has the ability to
       capture data required to assess the timeliness of fraud referral evaluations. However, CI
       plans to issue additional guidance to ensure special agents timely record specific
       information related to fraud referral evaluations, which should enhance CI’s ability to
       monitor the timeliness of fraud referral evaluations.
       Office of Inspections and Evaluations Comment: CI will attempt to assess how
       timely referrals are processed using the date the special agent opened a case to evaluate
       the referral (primary investigation start date) and the date the case was either returned to
       the business unit it came from (primary investigation close date) or the date the
       investigation was upgraded to a subject criminal investigation (subject criminal
       investigation start date).
       We accept that CI might use the dates listed above to measure the timeliness of fraud
       referral evaluations instead of modifying CIMIS to accept the actual referral received and
       closed dates. However, delays in posting specific information to CIMIS can significantly
       distort the evaluation period. For the 14 fraud referrals for which CI provided data to
       determine the evaluation period, we determined delays in posting information to CIMIS
       extended the evaluation period by an average of 25 calendar days. Issuing additional
       guidance to ensure special agents timely record specific information related to fraud
       referral evaluations should improve CI’s capability to measure timeliness. However,
       these measures will only provide a general indication of whether evaluations are being
       processed timely. In cases where the evaluation period exceeds established guidelines,
       additional research will be required to determine whether there were delays in posting
       information to CIMIS or actual delays in the evaluation process.
Types of tax-exempt investigations
CI had an inventory of 168 tax-exempt investigations during the period Fiscal Years 2007
through 2009. The investigations related to tax-exempt organizations consisted of general
investigations, primary investigations, and subject criminal investigations. A general
investigation is a review of a group, activity or program designed to identify possible violations
of laws enforced by the IRS. The purpose of a general investigation is to identify and develop
sources for primary investigations. If the results of a general investigation indicate an individual
or entity may be involved in criminal activity, CI should initiate a primary investigation.


                                                                                             Page 5
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




The objective of a primary investigation is to evaluate an allegation that an individual or entity is
in noncompliance with laws enforced by the IRS. A primary investigation may also relate to a
group of individuals involved in a coordinated scheme. As stated above, a primary investigation
can result from a general investigation; however, CI initiates most primary investigations from
information obtained from other sources. As additional information is developed that indicates
prosecution potential exists, the primary investigation should be elevated to a subject criminal
investigation.
CI should conduct a subject criminal investigation to investigate a specific individual or entity
alleged to be in violation of laws enforced by the IRS and having criminal prosecution potential.
The objective of a subject criminal investigation is to gather pertinent evidence to prove or
disprove the existence of a violation of the laws enforced by the IRS.
The distribution of tax-exempt investigations conducted during Fiscal Years 2007 through 2009
includes the following:
   • *****1*****
   •   Forty-five primary investigations; and,
   •   One hundred and twenty-one subject criminal investigations.
Sources of tax-exempt investigations
For Fiscal Years 2007 through 2009, TE/GE and SB/SE were the leading source of tax-exempt
investigations. These two divisions accounted for 27 percent of tax-exempt investigations. The
United States Attorney’s Office accounted for 20 percent of tax-exempt investigations, while
other Federal agencies, such as the Federal Bureau of Investigation, provided 24 percent of the
referrals for tax-exempt investigations. Figure 1 documents the sources of all tax-exempt
investigations conducted during Fiscal Years 2007 through 2009.




                                                                                              Page 6
                    Review of the Internal Revenue Service Criminal Investigation
                             Division’s Nonprofit Fraud Referral Process




                         Figure 1: Source of Tax-Exempt Investigations
                             Source                                  Count Percentage
               TE/GE and SB/SE (Fraud Referrals)                         45        27%
               Other Federal Agencies                                    40        24%
               United States Attorney’s Office                           34        20%
               State/Local                                               15         9%
               General Public/Media                                      14         8%
               Other IRS                                                  8         5%
               Suspicious Activity Report1                                7         4%
               *****1*****                                            ***1***   ***1***
               *****1*****                                            ***1***   ***1***
               *****1*****                                            ***1***   ***1**
                                               Total                    168       100%
                1
                  A report filed by specific types of financial institutions to report potential or
                actual illegal activity.
                 *****1**********************************************************
                ****************************************************************
                Source: Summary of information obtained from CIMIS.

We found that CI initiated about 48 percent of these investigations (81 of 168) before Fiscal
Year 2007, and applied over 180,000 direct hours to these investigations. Special agents spent
an average of 2,226 hours investigating these files.
Approximately 79 percent of the tax-exempt investigations initiated before Fiscal Year 2007
were grand jury investigations,8 which require substantially more time to investigate than
non-grand jury investigations. Special agents spent an average of 1,877 hours investigating
grand jury cases, whereas on non-grand jury cases they only spent an average of 332 hours
(about 82 percent less time.)
The number of new tax-exempt investigations has declined but is consistent with
the percentage of returns filed by tax-exempt entities
During Fiscal Years 2007 through 2009, CI initiated a total of 27,546 investigations of which
87 were tax-exempt investigations. The tax-exempt investigations represent less than one-half
percent of all new investigations during that period. Figure 2 compares the number of
tax-exempt investigations initiated to total investigations initiated during the three-year period.




8
 Federal grand juries investigate possible criminal violations of the Federal laws and return indictments against
culpable corporations and individuals where there is probable cause to believe that a violation has occurred.
                                                                                                              Page 7
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




                Figure 2: Tax-Exempt Investigations as a Percentage
                               of Total Investigations


                                                          Percentage
                      Tax-exempt        Total
            Fiscal                                 Investigations Related to
                     Investigations Investigations
            Year                                         Tax-exempt
                       Initiated      Initiated
                                                        Organizations


            2007            42               9,363               0.45%


            2008            27               8,425               0.30%


            2009            18               9,758               0.23%


            Total           87              27,546              0.32%

             Source: Summary of data obtained from the CIMIS.

While the number of cases and the percentage to the total of all investigations has declined, the
percentage is consistent with the percentage of tax returns filed by tax-exempt organizations.
Specifically, tax returns filed by tax-exempt organizations for Fiscal Years 2007 and 2008 were
also less than one-half percent of total returns filed. Figure 3 compares the percentage of
investigations related to tax-exempt organizations to the percentage of tax returns filed by
tax-exempt organizations.




                                                                                            Page 8
                    Review of the Internal Revenue Service Criminal Investigation
                             Division’s Nonprofit Fraud Referral Process




                Figure 3: Percentages for New Tax-Exempt Investigations
                   and Returns Filed by Tax-Exempt Organizations are
                                  Relatively Consistent

                   0.50%


                                0.45%
                   0.40%
                                        0.38%                                 0.38%
                                                               0.36%                  0.37%
                   0.30%
                                                       0.30%

                   0.20%


                   0.10%


                   0.00%
                             Fiscal Year 2007       Fiscal Year 2008              Total

                           Percentage of Investigations Related to Tax-Exempt Organizations

                           Percentage of Returns Filed by Tax-Exempt Organizations



                Source: Summary of information obtained from the CIMIS and the IRS Data Book, 2009.

Tax-exempt investigations are not as successful as other types of investigations
When CI completes a subject criminal investigation, the case is either discontinued9 or the case is
provided to the Department of Justice Tax Division or a United States Attorney Office for
consideration of criminal prosecution. During Fiscal Years 2007 through 2009, CI completed
103 subject criminal investigations related to tax-exempt organizations. The results of the
103 completed investigations were as follows:
    •    Thirty-six were successfully prosecuted or the defendant plead guilty;
    •    Twenty-two were in the process of being prosecuted;
    •    Eight were dismissed or the defendant was acquitted;




9
 A discontinued investigation is a subject criminal investigation that resulted in a determination that there was no
prosecution potential.
                                                                                                               Page 9
                     Review of the Internal Revenue Service Criminal Investigation
                              Division’s Nonprofit Fraud Referral Process




     •   Thirteen were not accepted for prosecution; and,
     •   Twenty-four were discontinued.
In 36 of the 103 completed investigations, the defendants were convicted or plead guilty,
resulting in a conviction rate of approximately 35 percent.10 In order to provide some perspective
to the conviction rate for tax-exempt investigations, we compared it to the conviction rate for all
completed legal source investigations completed during the same period, because investigations
related to tax-exempt organizations generally relate to legal source investigations.11 The
conviction rate for all legal source investigations during Fiscal Years 2007 through 2009 was
approximately 42 percent, about 17 percent higher than the conviction rate for tax-exempt
investigations.
We also compared the conviction rate for completed tax-exempt investigations during this
three-year period to the conviction rate for all completed investigations. The conviction rate for
all completed investigations was approximately 53 percent, 33 percent higher than the conviction
rate for tax-exempt investigations. However, about 60 percent of all completed investigations
relate to illegal source financial crimes and narcotics-related financial crimes, which have
significantly higher conviction rates of 57 and 66 percent respectively. Figure 4 illustrates our
comparison of the conviction rates.




10
   TIGTA computed the conviction rate by dividing the total number of convictions by the total number of
completed subject criminal investigations. TIGTA’s conviction rate differs significantly from that computed by CI.
CI’s rate does not include discontinued investigations, referrals for prosecution that are not accepted for prosecution,
or cases in the process of being prosecuted in the total number of completed subject criminal investigations.
11
   Legal source financial crimes involve legal industries and occupations, and legally earned income associated with
the violation of Title 26 (tax violations) and Title 18 (tax-related violations) of the United States Code.
                                                                                                              Page 10
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




                  Figure 4: Comparison of Conviction Rates for Fiscal
                               Years 2007 through 2009



                60%

                                                             53%
                50%

                40%                                42%
                                         35%
                30%

                20%

                10%

                 0%
                                 Fiscal Years 2007 through 2009

                        Tax-Exempt          Legal Source             All Investigation


           Source: Summary of information obtained from the CIMIS.

The defendants in the successfully prosecuted tax-exempt cases were sentenced to an average of
four years and three months in prison, and in total were ordered to pay nearly $41.2 million in
tax assessments, fines, restitution, court costs and forfeited property.12 CI has classified 23 of the
36 investigations as closed because the cases have been fully adjudicated in that all appeals have
been filed and resolved, or the period to file them has expired. The remaining 13 investigations
are not classified as closed because the convictions, prison sentences and ordered payments
could be changed. *****1*****************************************************
********************** Our analysis revealed that approximately 92 percent of successful
prosecutions (33 of 36) involved the use of a grand jury and as previously stated required an
average of 1,877 staff hours to complete.
CI completed 22 investigations that have been recommended and accepted for prosecution and
are awaiting final actions such as, a convictions, acquittal or dismissal.


 *****1***********************************************************************************
*****************************************************************************************
*****************************************************************************************
                                                                                              Page 11
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




A total of 45 investigations did not result in a successful prosecution, because the Department of
Justice did not accept CI’s referral for prosecution, the case was dismissed or the defendant was
acquitted, or CI discontinued the subject criminal investigations. Figure 5 shows the reasons
why the cases were not successfully prosecuted.
         Figure 5: Reasons that Subject Criminal Investigations Related to
           Tax-Exempt Organizations were not Successfully Prosecuted
                          Reason Closed                         Count      Percentage
            Department of Justice/United States                      13          29%
            Attorney’s Office Declined Prosecution
            Acquittal/Dismissed                                       8          18%
            Insufficient Evidence                                     9          20%
            Action in a Related Investigation                         4           9%
            *****1*****                                         ***1***    ***1***
            *****1*****                                         ***1***     ***1***
            *****1*****                                          ***1***     ***1***
            *****1*****                                        ***1***     ***1***
            *****1*****                                        ***1***     ***1***
            *****1*****                                        ***1***     ***1***
            *****1*****                                        ***1***     ***1***
                                                Total                45           100
            Source: Summary of information obtained from the CIMIS.

Conclusion
While the number of investigations of tax-exempt entities has declined in the three-year period
we reviewed, the relative percentage of investigations to the total number of tax-exempt returns
filed appears to be appropriate. Additionally, even though the percentage of tax-exempt subject
investigations that result in a conviction is lower than the percentage of legal source cases that
result in a conviction, a third of the tax-exempt cases (the majority of which employed the grand
jury process) have been successfully prosecuted.




                                                                                           Page 12
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to document CI’s efforts to investigate criminal fraud related to the
tax-exempt organizations and assess the procedures used to conduct and manage such
investigations. To achieve this objective we completed the following steps:
  I. Documented and assessed CI’s procedures used to evaluate, process, and manage fraud
     referrals from receipt to final resolution.
     A. Reviewed relevant sections of the Internal Revenue Manual, standard operating
        procedures, and other guidance to document the transaction flow and processing time of
        fraud referrals from the time CI receives the referral through final resolution.
     B. Documented the other sources of investigations related to tax-exempt entities and
        identified how the transaction flow and processing time differ from those related to
        fraud referrals.
 II. Analyzed data maintained by CI regarding the number of referrals related to tax-exempt
     entities.
     A. Documented the number of investigations related to tax-exempt entities for Fiscal
        Years 2007, 2008, and 2009, and documented the results of those investigations.
     B. Documented the number of fraud referrals from other sources and compared those
        referrals to those received for tax-exempt entities.




                                                                                           Page 13
                Review of the Internal Revenue Service Criminal Investigation
                         Division’s Nonprofit Fraud Referral Process




                                                                                Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Office of Inspections and Evaluations
James A. Douglas, Supervisory Evaluator, Office of Inspections and Evaluation
Frederick J. Ephraim, Management Analyst




                                                                                     Page 14
                Review of the Internal Revenue Service Criminal Investigation
                         Division’s Nonprofit Fraud Referral Process




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation SE:CI
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS
Deputy Inspector General for Audit IG:A




                                                                                    Page 15
                 Review of the Internal Revenue Service Criminal Investigation
                          Division’s Nonprofit Fraud Referral Process




                                                                              Appendix IV


        Prison Sentences and Ordered Payments for
           Completed Tax-Exempt Investigations
    TIGTA Control                                   Total Ordered to
                            Prison Sentence                                Closed or Open1
       Number                                             Pay
       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****

       *****1*****              *****1*****                  *****1*****      *****1*****



*****1************************************************************************************
                                                                                        Page 16
               Review of the Internal Revenue Service Criminal Investigation
                        Division’s Nonprofit Fraud Referral Process




                                                    Appendix IV (continued)

  TIGTA Control                              Total Ordered to
                         Prison Sentence                           Closed or Open
     Number                                        Pay
     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****

     *****1*****             *****1*****             *****1*****      *****1*****
Total Ordered
                                                   $41,232,892
Payments
Average Prison
                         8 Years, 2 Months
Sentence
Average Prison
Sentence without
                         4 Years, 3 Months
control numbers 1
and 25




                                                                                Page 17
    Review of the Internal Revenue Service Criminal Investigation
             Division’s Nonprofit Fraud Referral Process




                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 18
Review of the Internal Revenue Service Criminal Investigation
         Division’s Nonprofit Fraud Referral Process




                                                        Page 19
Review of the Internal Revenue Service Criminal Investigation
         Division’s Nonprofit Fraud Referral Process




                                                        Page 20
